APPENDIX

A

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

977 F.3d 1146
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
John Matthew GAYDEN, Jr., Defendant-Appellant.

Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion; Trial or Guilt Phase Motion or Objection; Sentencing
or Penalty Phase Motion or Objection.
West Headnotes (22)
[1]

No. 18-14182
|
(October 9, 2020)
Synopsis
Background: Following denial of his motions to suppress,
2018 WL 8809238, to disqualify expert, to dismiss
indictment, and to exclude testimony, 2018 WL 8808058,
defendant was convicted in the United States District Court
for the Middle District of Florida, No. 6:16-cr-00187-CEMTBS-1, Carlos Mendoza, J., of unlawful distribution of
controlled substance related to his prior medical practice, and
he appealed.

Court of Appeals reviews district court's denial
of motion to dismiss indictment for abuse of
discretion.

[2]

To establish violation of defendant's Fifth
Amendment rights, defendant must show
that pre-indictment delay caused him actual
substantial prejudice and that delay was product
of deliberate act by government designed to gain
tactical advantage. U.S. Const. Amend. 5.

[3]

[2] warrantless review of defendant's records disclosed to
state via its prescription drug monitoring program did not
violate Fourth Amendment;

[4] district court did not violate Ex Post Facto Clause in
sentencing defendant;
of

justice

[6] defendant's 235-month sentence was not substantively
unreasonable.
Affirmed.

Indictments and Charging
Instruments
Intentional delay; tactical
advantage
Although defendant seeking to dismiss
indictment for pre-indictment delay is not
obligated to prove bad faith on government's
part, critical element is that government makes
judgment about how it can best proceed with
litigation to gain advantage over defendant and,
as result of that judgment, indictment is delayed.

[3] district court did not abuse its discretion in denying
defendant's motion to exclude government witness's expert
testimony;

[5] imposition of two-level obstruction
enhancement was warranted; and

Indictments and Charging
Instruments
Intentional delay; tactical
advantage
Indictments and Charging
Instruments
Prejudice

Holdings: The Court of Appeals, Tallman, Circuit Judge,
sitting by designation, held that:
[1] district court did not abuse its discretion in denying
defendant's motion to dismiss for pre-indictment delay;

Criminal Law
Amendments and rulings as
to indictment or pleas

[4]

Indictments and Charging
Instruments
Cause of Delay
Indictments and Charging
Instruments
Loss of evidence or witnesses
District court did not abuse its discretion in
denying defendant's motion to dismiss for preindictment delay in charging him with unlawful
distribution of controlled substance related to his

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

prior medical practice, even though defendant
was prejudiced by his inability to call his mother
and his former office manager as trial witnesses
because they died after relevant conduct but
before trial, and by destruction of records
obtained under administrative subpoenas, where
government claimed that two-year delay during
pre-indictment period was at least partially
caused by need to retain new expert, and there
was no evidence of tactical delay.

[5]

Criminal Law

Review De Novo

Criminal Law

Reception of evidence

Criminal Law
obtained

Evidence wrongfully

Under third-party doctrine, individual lacks
reasonable expectation of privacy protected by
Fourth Amendment in information revealed to
third party and conveyed by that third party to
government authorities, even if information is
revealed on assumption that it will be used only
for limited purpose and that confidence placed
in third party will not be betrayed. U.S. Const.
Amend. 4.
1 Cases that cite this headnote
[10]

Physician did not have reasonable expectation
of privacy in automated prescription records
he disclosed to state via its prescription drug
monitoring program (PDMP), and thus Drug
Enforcement Administration (DEA) special
agent's warrantless review of physician's records
in PDMP did not violate Fourth Amendment;
physician had no special privacy interest in his
prescribing records, his participation in PDMP
system was voluntary, and prescriptions were,
by their very nature, intended to be disclosed to
pharmacies that filled them. U.S. Const. Amend.
4.

In reviewing denial of motion to suppress, Court
of Appeals reviews factual findings for clear
error, viewing evidence in light most favorable to
prevailing party, and reviews de novo application
of law to facts.

[6]

Searches and Seizures
and Things Protected

Persons, Places

Fourth Amendment protects people, not places.
U.S. Const. Amend. 4.

[7]

Searches and Seizures
privacy

Expectation of

[11]

[12]
Searches and Seizures
privacy

Expectation of

Fourth Amendment's application depends on
whether person invoking its protection can claim
justifiable, reasonable, or legitimate expectation
of privacy that has been invaded by government
action. U.S. Const. Amend. 4.

[9]

Searches and Seizures
Abandoned,
surrendered, or disclaimed items

Criminal Law

Admissibility

Denial of motion to exclude expert testimony is
reviewed for abuse of discretion. Fed. R. Evid.
702.

What person knowingly exposes to public, even
in his home or office, is not subject of Fourth
Amendment protection. U.S. Const. Amend. 4.

[8]

Searches and Seizures
Administrative
inspections and searches; regulated businesses

Criminal Law
Experiments and Tests;
Scientific and Survey Evidence
Criminal Law

Aid to jury

Criminal Law
and Skill

Knowledge, Experience,

In determining admissibility of expert testimony,
trial court must consider whether: (1) expert
is qualified to testify competently regarding
matters he intends to address; (2) methodology
by which expert reaches his conclusions is
sufficiently reliable as determined by sort
of inquiry mandated in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Daubert; and (3)

2

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

testimony assists trier of fact, through application
of scientific, technical, or specialized expertise,
to understand evidence or to determine fact in
issue. Fed. R. Evid. 702.
1 Cases that cite this headnote
[13]

Criminal Law

[17]

Criminal Law

Review De Novo

Criminal Law

Sentencing

Criminal Law

Sentencing and
Time of

District court did not violate Ex Post Facto
Clause in sentencing defendant for unlawful
distribution of controlled substance related
to his prior medical practice by considering
prescriptions he wrote before state amended its
standard of care guidance for pain management
medicine in calculating total drug weight
involved in his case, where defendant's conduct
was prohibited under either version of standard
of care. U.S. Const. art. 1, § 9, cl. 3; Fla. Admin.
Code Ann. r. 64B8-9.013.

[18]

Sentencing and Punishment
of justice

Obstruction

Imposition of two-level obstruction of justice
enhancement was warranted in sentencing
defendant for unlawful distribution of controlled
substance related to his prior medical practice,
where defendant made substantial “updates” to
his patient records after state search warrant
for some of his files was executed, but before
federal search warrant for all of his remaining
files was served, to purportedly document more
fulsome patient examinations to justify writing
prescriptions that were not initially recounted
in defendant's contemporaneous patient records.

Court of Appeals reviews interpretation of
Sentencing Guidelines de novo and any
underlying factual findings for clear error.

[15]

Constitutional Law
Imprisonment

Sentencing and Punishment
other offense or misconduct

Admissibility

District court did not abuse its discretion
in prosecution for unlawful distribution of
controlled substance related to defendant's
prior medical practice in denying defendant's
motion to exclude government witness's
expert testimony that defendant overprescribed
controlled substances on ground that expert's
review of irrelevant inflammatory information
about defendant before forming his opinion
made his opinion subject to confirmation bias,
even though demonstrating confirmation bias on
cross-examination would require disclosure of
that inflammatory information. Fed. R. Evid.
702.

[14]

law at time when act was committed. U.S. Const.
art. 1, § 9, cl. 3.

Sentencing

Court of Appeals reviews whether district court
imposed substantively reasonable sentence for
abuse of discretion.

U.S.S.G. § 3C1.1.
[16]

Constitutional Law

Penal laws in general

Constitutional Law

Punishment in general

Constitutional Law

Criminal Proceedings

[19]

Criminal Law

Sentencing

Review
for
sentence's
substantive
unreasonableness involves examining totality of
circumstances, including inquiry into whether
statutory sentencing factors support sentence.

Ex Post Facto Clause prohibits enactment of
statutes that: (1) punish as crime act previously
committed that was innocent when done; (2)
make more burdensome punishment for crime,
after its commission; or (3) deprive one charged
with crime of any defense available according to

18 U.S.C.A. § 3553(a).

[20]

Criminal Law

Burden of showing error

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

Criminal Law
punishment

Judgment, sentence, and

Attorneys and Law Firms

Court of Appeals ordinarily expects sentence
within Guidelines range to be reasonable,
and defendant has burden of establishing that
sentence is unreasonable in light of record and
statutory sentencing factors.
3553(a).

[21]

Criminal Law

18 U.S.C.A. §

Sentencing

Court of Appeals should only vacate sentence
as substantively unreasonable if it is left with
definite and firm conviction that district court
committed clear error of judgment in weighing
statutory sentencing factors by arriving at
sentence that lies outside range of reasonable
sentences dictated by facts of case.
U.S.C.A. § 3553(a).

[22]

Controlled Substances
punishment

18

Extent of

Sentencing and Punishment
Degree of
harm caused by offense in general
Sentencing and Punishment
conduct of court

Remarks and

Defendant's 235-month sentence for unlawful
distribution of controlled substance related to
his prior medical practice was not substantively
unreasonable, despite defendant's contentions
that district court failed to consider mitigating
evidence and demonstrated personal animus
toward him; court did consider mitigating
evidence, sentence was at low end of his
Guidelines range, and court's harsh words
in addressing impact of defendant's abusive
prescription practices appropriately conveyed
opprobrium of community harmed by his
misbehavior.

*1148 Linda Julin McNamara, U.S. Attorney Service Middle District of Florida, U.S. Attorney's Office, Tampa, FL,
for Plaintiff-Appellee.
Katherine Grace Howard, Conrad Benjamin Kahn, Ali
Kamalzadeh, Michael Shay Ryan, Rosemary Cakmis, Federal
Public Defender's Office, Orlando, FL, for DefendantAppellant.
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 6:16-cr-00187-CEMTBS-1
Before MARTIN, ROSENBAUM, and TALLMAN, * Circuit
Judges.
Opinion
TALLMAN, Circuit Judge:
*1149 Dr. John Gayden, Jr., was convicted of seven counts
of unlawful distribution of a controlled substance related
to his prior medical practice, which the evidence showed
attracted an unusually high volume of drug-seeking patients.
He now appeals his conviction and sentence, raising a series
of challenges to the district court's pretrial rulings and the
sentence imposed. We affirm his conviction and sentence.

I
Gayden practiced in Indialantic, Florida for many years.
In October 2011, the Florida Department of Health closed
Gayden's medical practice and he later surrendered his
medical license. Around the same time, law enforcement
began to investigate Gayden's medical practice based on tips
that he was prescribing excessive amounts of Oxycodone.
Drug Enforcement Administration Special Agent Eva Sala
led the investigation of Gayden and his patients by reviewing
automated prescription records through Florida's Prescription
Drug Monitoring Program (PDMP).
The PDMP is an electronic database administered by the
State of Florida. It collects records statewide of controlled
substances prescriptions from prescribers and pharmacies
into a single location, allowing medical professionals to
review a patient's controlled substances prescription history
as a way to deter abusive drug-seeking and “doctor shopping.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

Law enforcement officers may apply to obtain access to
the PDMP for criminal pharmaceutical investigations. Once
granted access, an officer can electronically search through
prescription records and filter them by category to look for
trends in the type, frequency, and dosage of prescriptions
written by a specific physician or filled at a particular
pharmacy.
Through her review of the PDMP, Agent Sala discovered
Gayden had a history of irregular prescribing practices,
including issuing scripts for opioids in higher quantities, of
greater potency, and in greater frequency than the norm.
Based on this information, she obtained a state search warrant
for twelve of Gayden's patient records, which Gayden had
stored at his mother's home. Later, Agent Sala obtained a
federal search warrant for the remaining patient records stored
there. Law enforcement also issued administrative subpoenas
to pharmacies, conducted surveillance on Gayden's clinic,
obtained audio and video recordings from undercover patient
visits to Gayden's clinic, and obtained information from
some of Gayden's patients and employees regarding Gayden's
prescribing practices. The investigation disclosed long lines
of patients waiting to get into Gayden's office and officers
learned the doctor insisted on cash only to pay for his services.
*1150 In September 2016, just before the five-year statute of
limitations ran, a federal grand jury indicted Gayden on seven
counts of unlawful distribution of a controlled substance,
in violation of
21 U.S.C. § 841(a)(1). During pretrial
proceedings, Gayden moved to dismiss the indictment for
unreasonable investigative delay, to suppress the evidence
obtained from Agent Sala's search of the PDMP and
Gayden's patient records, and to exclude evidence from the
government's proposed trial expert, Dr. Gary Reisfield. The
district court denied each of Gayden's motions.
The jury convicted Gayden on all seven counts of the
indictment. At the sentencing phase, the district court
calculated Gayden's Sentencing Guideline range between
235 and 293 months of imprisonment. Gayden presented
mitigating evidence concerning his age, medical and mental
conditions, and increased vulnerability in a prison setting.
Before pronouncing sentence, the district judge characterized
his actions by referring to him as an “arrogant monster.”
The district court then sentenced Gayden to 235 months’
imprisonment. Gayden timely filed a notice of appeal.

II
A
[1] Gayden first challenges the district court's denial of his
motion to dismiss the indictment for pre-indictment delay.
“We review the district court's denial of [a] motion to dismiss
the indictment for an abuse of discretion.” United States v.
Pielago, 135 F.3d 703, 707 (11th Cir. 1998).
[2] Gayden argues the government's delay in bringing
the indictment violated his Fifth Amendment rights. 1 To
establish a violation of a defendant's Fifth Amendment rights,
the defendant must show that “pre-indictment delay caused
him actual substantial prejudice and that the delay was the
product of a deliberate act by the government designed to gain
a tactical advantage.”
United States v. Foxman, 87 F.3d
1220, 1222 (11th Cir. 1996). Addressing the first element,
Gayden asserts that he was prejudiced by his inability to call
his mother and his former office manager as trial witnesses,
as both individuals died after the relevant conduct but
before trial, and by the destruction of records obtained under
administrative subpoenas. Even assuming Gayden shows
prejudice here, he still must show a deliberate act by the
government designed to gain a tactical advantage over him.
[3] [4] Gayden correctly notes that he is not obligated to
prove bad faith on the government's part, but “[t]he critical
element is that the government makes a judgment about
how it can best proceed with litigation to gain an advantage
over the defendant and, as a result of that judgment, an
indictment is delayed.” Foxman, 87 F.3d at 1223 n.2. Here,
Gayden offers conclusory assertions about the government's
timeline and never disputes the government's claim that a
two-year delay during the pre-indictment period was at least
partially caused by the need to retain a new expert. At best,
Gayden's position can be summed up as “the government
failed to explain the delay” – which places the burden on the
wrong party – and “the government should have completed
its investigation *1151 more quickly” – which does not
adequately show a “tactical delay.” The district court did not
abuse its discretion in denying Gayden's motion to dismiss the
indictment for pre-indictment delay.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

B
[5] Gayden next argues the district court erred in denying
his motions to suppress evidence obtained from Agent Sala's
search of the PDMP and of patient files stored at Gayden's
mother's home. “A denial of a motion to suppress involves
mixed questions of fact and law. We review factual findings
for clear error, and view the evidence in the light most
favorable to the prevailing party. We review de novo the
application of the law to the facts.” United States v. Barber,
777 F.3d 1303, 1304 (11th Cir. 2015) (citations omitted).

1291 (11th Cir. 2018) (quoting United States v. Miller, 425
U.S. 435, 443, 96 S.Ct. 1619, 48 L.Ed.2d 71 (1976)). But
the Supreme Court in
Carpenter declined to extend the
third-party doctrine to cell-site location information, holding
that “a warrant is required in the rare case where the suspect
has a legitimate privacy interest in records held by a third
party.” 138 S. Ct. at 2222. The Court reasoned that “[g]iven
the unique nature of cell phone location records, the fact that
the information is held by a third party does not by itself
overcome the user's claim to Fourth Amendment protection.”
Id. at 2217. It further stressed that its holding “is a narrow
one,” with specific consideration given to “the unique nature

1

of cell phone location information,” *1152
id. at 2220,
which “provides an intimate window into a person's life,”

Gayden contends the district court should have suppressed the
government's evidence obtained from the PDMP because the
government should have obtained a warrant before searching

id. at 2217. Accordingly,
Carpenter does not, on its
face, apply to Gayden's prescribing records.

the PDMP. 2 He argues the third-party doctrine, generally
allowing warrantless searches of information disclosed to
others, should not extend to his prescribing records because
the nature of the PDMP raises concerns under
Carpenter
v. United States, ––– U.S. ––––, 138 S. Ct. 2206, 201 L.Ed.2d
507 (2018).

However, Carpenter reiterates that two primary rationales
underlie the third-party doctrine: the nature of the information
sought and the voluntariness of the exposure to third parties.
Id. at 2219–20. We consider Gayden's argument through
this lens.

[10] First, Gayden maintains no special privacy interest in
[6] [7] [8] The Fourth Amendment safeguards “[t]he right his prescribing records. Gayden attempts to vicariously assert
of the people to be secure in their persons, houses, papers,
a privacy interest here based on the sensitive and confidential
and effects, against unreasonable searches and seizures.” U.S.
nature of his patients’ medical records. Although individual
Const. amend. IV. It “protects people, not places. What a
patients might arguably have a stronger basis to assert such
person knowingly exposes to the public, even in his home
a privacy interest in their own medical information, Gayden
or office, is not a subject of Fourth Amendment protection.”
in his role as the prescriber does not have a similar privacy
Katz v. United States, 389 U.S. 347, 351, 88 S.Ct. 507,
19 L.Ed.2d 576 (1967). “[T]he application of the Fourth
Amendment depends on whether the person invoking its
protection can claim a ‘justifiable,’ a ‘reasonable,’ or a
‘legitimate expectation of privacy’ that has been invaded by
government action.”
Smith v. Maryland, 442 U.S. 735,
740, 99 S.Ct. 2577, 61 L.Ed.2d 220 (1979).
[9] Under the third-party doctrine, an individual lacks a
reasonable expectation of privacy “in information ‘revealed
to a third party and conveyed by [that third party] to
Government authorities, even if the information is revealed
on the assumption that it will be used only for a limited
purpose and that confidence placed in the third party will
not be betrayed.’ ” Presley v. United States, 895 F.3d 1284,

interest in the prescription records of his patients. “[T]he
Fourth Amendment's ultimate touchstone is reasonableness.”
Brigham City, Utah v. Stuart, 547 U.S. 398, 398, 126
S.Ct. 1943, 164 L.Ed.2d 650 (2006) (internal quotation marks
omitted). Gayden cannot reasonably assert a privacy interest
in his prescribing records that is solely derived from other
people's interest in the confidential nature of their own
medical information which they choose to disclose to a
pharmacist to get filled.
Second, Gayden's disclosure of his prescribing records to
third parties was voluntary. Gayden was not required to
participate in the PDMP system. Instead, Gayden volunteered
by enrolling as a participant in the automated system, which
was specifically designed to share his prescription records

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

between health care providers and pharmacies to combat the
statewide opioid crisis. Moreover, the third-party doctrine
applies “even if the information is revealed on the assumption
that it will be used only for a limited purpose and the
confidence placed in the third party will not be betrayed.”
Miller, 425 U.S. at 443, 96 S.Ct. 1619. It is true that
Gayden disclosed his prescribing records on a limited basis,
but that does not make the disclosure involuntary. Indeed,
the prescriptions Gayden wrote for his patients were, by their
very nature, intended to be revealed to others when they were
disclosed by the physician and the patients to the pharmacies
which filled them.
Because on this record Gayden did not have a reasonable
expectation of privacy in the prescriptions he wrote for his
patients, and because Gayden voluntarily disclosed those
prescription records to others through his participation in
the computerized tracking system, he fails to establish why
Carpenter’s rationale should extend to shield from state
public health and law enforcement authorities his patient
prescription records. Instead, the prescription records are
third-party material and the district court did not err in
denying his motion to suppress the evidence obtained without
a warrant from the PDMP system.

2
Gayden also challenges the search and seizure of the patient
medical files Gayden stored at his mother's home. His
argument is largely devoted to establishing his standing to
challenge the search, although he also minimally argues that
the federal search warrant for these records was not supported
by probable cause because it relied on tainted information
obtained through improper state warrants. This claim is
unpersuasive. Even when information obtained from the
improper state search warrants is excised from the affidavit
supporting the federal search warrant, the federal warrant
remains amply supported by other facts establishing probable
*1153 cause. United States v. Bush, 727 F.3d 1308, 1316
(11th Cir. 2013). Moreover, Gayden develops no argument
as to why the good-faith exception to the exclusionary rule
should not apply. See United States v. Taylor, 935 F.3d 1279,
1289–91 (11th Cir. 2019). The district court did not err
in denying on both grounds Gayden's motion to suppress
evidence obtained from the patient files stored at his mother's
home.

C
[11] [12] Gayden next argues that the district court erred
in denying his motion to exclude the government's expert
witness, Dr. Gary Reisfield, under the

Daubert standard

enshrined in Federal Rule of Evidence 702.
Daubert v.
Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 113 S.Ct.
2786, 125 L.Ed.2d 469 (1993). Denial of a Daubert motion
is reviewed for an abuse of discretion, which “places a ‘heavy
thumb’ – ‘really a thumb and a finger or two’ – ‘on the
district court's side of the scale.’ ” United States v. Pon, 963
F.3d 1207, 1219 (11th Cir. 2020) (quoting
United States v.
Brown, 415 F.3d 1257, 1268 (11th Cir. 2005)). In determining
the admissibility of expert testimony, the trial court must
consider whether:

(1) the expert is qualified to testify
competently regarding the matters
he intends to address; (2) the
methodology by which the expert
reaches his conclusions is sufficiently
reliable as determined by the sort
of inquiry mandated in
Daubert;
and (3) the testimony assists the
trier of fact, through the application
of scientific, technical, or specialized
expertise, to understand the evidence
or to determine a fact in issue.

United States v. Frazier, 387 F.3d 1244, 1260 (11th Cir.
2004) (citation omitted).
[13] Gayden contends Dr. Reisfield's testimony that he
overprescribed controlled substances should have been
excluded because the expert witness reviewed irrelevant
inflammatory information about Gayden before forming his
opinion. Gayden argues Dr. Reisfield's opinion was thus
subject to confirmation bias rendering it unreliable. But the
potential for confirmation bias, to which Gayden concedes
“all persons” are subject, and which the district court properly
ruled was appropriate fodder for cross-examination, does
not establish that the district court abused its discretion
in allowing Dr. Reisfield to testify. The fact that defense

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

counsel had to make a difficult tactical decision to forgo
asking questions to demonstrate bias in formulating his expert
opinion, which would have required eliciting information that
would have harmed Gayden if the jury heard it, is not the kind
of Hobson's choice that mandates striking the expert from
testifying. The district court did not abuse its discretion in
denying Gayden's

Daubert motion.

D
Gayden argues that the cumulative effects of the district
court's pretrial and trial rulings deprived him of a fair
trial. Having failed to establish any error, though, Gayden's
cumulative error argument similarly fails.

available according to law at the time
when the act was committed.

United States v. De La Mata, 266 F.3d 1275, 1286 (11th
Cir. 2001). Gayden argues that because Florida amended its
standard of care guidance for pain management medicine in
October 2010, the district court should not have considered
any prescriptions written by Gayden before the amendment
date in its drug weight calculation. Compare Fla. Admin.
Code r. 64B8-9.013 (2010) with Fla. Admin. Code r.
64B8-9.013 (2003). Gayden carries the burden of showing
that the “change in law presents a ‘sufficient risk of increasing
the measure of punishment attached to the covered crimes’ ”
– which is the “touchstone” of the court's inquiry in an ex post

facto analysis.
Peugh v. United States, 569 U.S. 530, 539,
133 S.Ct. 2072, 186 L.Ed.2d 84 (2013) (citation omitted). We
conclude that Gayden has not made such a showing despite
E
the differences in language in the Florida Administrative
[14] [15] Gayden raises both procedural and substantive Code. Because Gayden's conduct was prohibited under either
challenges to his sentence. “We review the interpretation of
version of the standard of care, the district court did not
the Sentencing Guidelines de novo and any underlying factual
violate the ex post facto clause by considering his pre-2010
findings for clear error. We review whether the district court
prescriptions in calculating the total drug weight involved in
imposed a substantively reasonable sentence for abuse of
this case.
discretion.” *1154 United States v. Whyte, 928 F.3d 1317,
1327 (11th Cir. 2019) (citations omitted).
[18] Second, Gayden contends the district court erred by
applying a two-level obstruction of justice enhancement to
Gayden's offense level. The Sentencing Guidelines allow for
a two-level increase to the offense level where the defendant
1
willfully obstructed or impeded the administration of justice
[16]
[17] First, Gayden contends the district court with respect to the investigation, prosecution, or sentencing of
committed procedural error by improperly calculating his
the instant offense of conviction, and the obstructive conduct
Sentencing Guidelines range to include a drug quantity from
was related to the offense of conviction. U.S.S.G. § 3C1.1.
earlier prescriptions and documentation of medical necessity
The district court considered evidence that Gayden made
under a different formulation of state medical guidelines in
substantial “updates” to his patient records after the state
violation of the ex post facto clause.
search warrant for some of his files was executed, but before
the federal search warrant for all of his remaining files was
served. These “updates” purported to document more fulsome
The ex post facto clause prohibits
patient examinations to justify writing prescriptions which
the enactment of statutes which: (1)
were not initially recounted in Gayden's contemporaneous
punish as a crime an act previously
patient records. Based on this incriminating conduct, going
committed which was innocent when
to the heart of the charges for which he stood trial, the
done[;] (2) make more burdensome
district court did not err in applying the obstruction of justice
the punishment for a crime, after
enhancement.
its commission; or (3) deprive one
charged with a crime of any defense
2

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Gayden, 977 F.3d 1146 (2020)
113 Fed. R. Evid. Serv. 1529, 28 Fla. L. Weekly Fed. C 1999

[19]
[20]
[21] Gayden also argues that his sentence
[22] Gayden contends the district court failed to consider
was substantively unreasonable. A “review for substantive
mitigating
evidence and demonstrated personal animus
unreasonableness involves examining the totality of the
toward Gayden. However, the district court did consider the
circumstances, including an inquiry into whether the statutory
evidence Gayden highlights on appeal. Moreover, Gayden's
factors in [ 18 U.S.C.] § 3553(a) support the sentence in
sentence is at the low end of his Guidelines range. The district
question.” United States v. Gonzalez, 550 F.3d 1319, 1324
court's words for Gayden may have been harsh in addressing
(11th Cir. 2008). “We ordinarily expect a sentence within the
the impact of Gayden's abusive prescription practices, but
Guidelines range to be reasonable, and the appellant has the
they do not leave us with a “definite and firm conviction” that
burden of establishing the sentence is unreasonable in light
the court committed a clear error of judgment.
Irey, 612
of the record and the
§ 3553(a) factors.” Id. The *1155
F.3d at 1190. They appropriately conveyed the opprobrium
appellate court should only vacate the sentence if it is “left
of the community harmed by his misbehavior. The sentence
with the definite and firm conviction that the district court
imposed of 235 months was not substantively unreasonable.
committed a clear error of judgment in weighing the
§
3553(a) factors by arriving at a sentence that lies outside the
range of reasonable sentences dictated by the facts of the

AFFIRMED.

case.”

All Citations

United States v. Irey, 612 F.3d 1160, 1190 (11th Cir.

2010) (quoting United States v. Pugh, 515 F.3d 1179, 1191
(11th Cir. 2008)).

977 F.3d 1146, 113 Fed. R. Evid. Serv. 1529, 28 Fla. L.
Weekly Fed. C 1999

Footnotes
*
1

Honorable Richard C. Tallman, United States Circuit Judge for the Ninth Circuit, sitting by designation.
Gayden also raises a Sixth Amendment challenge to the pre-indictment delay. The Sixth Amendment has not

2

been applied to pre-indictment delay. See
United States v. Marion, 404 U.S. 307, 315, 92 S.Ct. 455, 30
L.Ed.2d 468 (1971). Moreover, Gayden failed to raise this issue below. We decline to consider this argument
for that reason. Haygood v. Auto-Owners Ins. Co., 995 F.2d 1512, 1515 (11th Cir. 1993).
Gayden's opening brief also purports to challenge the government's use of administrative subpoenas. Gayden
argued below that the government improperly used administrative subpoenas to obtain information from
pharmacies, airlines, hotels, and a cell service provider. However, he fails to develop any argument on this
subject on appeal. Accordingly, Gayden has waived any challenge to the administrative subpoena issue. See
United States v. Sperrazza, 804 F.3d 1113, 1125 (11th Cir. 2015).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

B

Case 6:16-cr-00187-CEM-LRH Document 172 Filed 06/19/18 Page 1 of 3 PageID 1511

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

UNITED STATES OF AMERICA
v.

Case No: 6:16-cr-187-Orl-41TBS

JOHN MATTHEW GAYDEN, JR.
/
ORDER
THIS CAUSE is before the Court on Defendant’s Motion for Reconsideration to Suppress
Illegally Seized Evidence (Doc. 167). Defendant argues that law enforcement violated sections
893.055 and 893.0551 of the Florida Statutes in obtaining evidence in this case, and that the
illegally obtained evidence should be suppressed. Specifically, those statutes establish Florida’s
Prescription Drug Monitoring Program (“PDMP”). In short, that program requires pharmacies 1
that dispense Schedule II, III, or IV controlled substances to report those transactions to the state
for use in the PDMP. See Fla. Stat. § 893.055(2)(a), (3)–(4); see also generally PDMP Fact Sheet,
Doc. 167-3. While the information in the PDMP database is accessible to registered practitioners
and pharmacies, law enforcement agencies are required to obtain permission to access it. Fla. Stat.
§ 893.055(7)(b), (c)(3). Further, law enforcement agencies “may not have direct access to [the
PDMP] database.” Fla. Stat. § 893.0551(3)(b).
The information at issue here involves prescribing information that Defendant gave to
patients in the form of prescriptions. This information was then transmitted to pharmacies when
the patients had their prescriptions filled, and the pharmacies then transmitted the information to
the PDMP. According to Defendant, the DEA Special Agent investigating this matter, Eva Sala,

1

The PDMP also has requirements for dispensing practitioners, but that is not at issue here.

Page 1 of 3

Case 6:16-cr-00187-CEM-LRH Document 172 Filed 06/19/18 Page 2 of 3 PageID 1512

somehow garnered unrestricted, direct access to the PDMP database in violation of Florida law.
This impermissible access, Defendant argues, violated his Fourth Amendment rights.
First, it appears that Agent Sala did obtain permission to access the PDMP database. (May
30, 2018 Hr’g Tr., Doc. 123, at 131:15–25, 159:1–160:3). However, there is some confusion as to
whether Agent Sala had direct access to the PMDP database. (Id. at 159:22–160:3). Nevertheless,
even accepting Defendant’s version of events as true—that Agent Sala was improperly given direct
access to the database—such actions did not violate Defendant’s Fourth Amendment rights.
As this Court explained in its previous Order on Defendant’s first Motion to Suppress,
(June 7, 2018 Order, Doc. 141), the Fourth Amendment only applies where the challenger has a
reasonable expectation of privacy upon which the government intrudes. Smith v. Maryland, 442
U.S. 735, 740 (1979). Additionally, a defendant’s “Fourth Amendment rights are violated only
when the challenged conduct invaded his legitimate expectation of privacy rather than that of a
third party.” United States v. Payner, 447 U.S. 727, 731 (1980). Indeed, the United States Supreme
Court “has held repeatedly that the Fourth Amendment does not prohibit the obtaining of
information revealed to a third party and conveyed by [it] to [g]overnment authorities, even if the
information is revealed on the assumption that it will be used only for a limited purpose and the
confidence placed in the third party will not be betrayed.” United States v. Miller, 425 U.S. 435,
443 (1976) (citing cases); see also Smith, 442 U.S. at 743–44 (stating that the United States
Supreme Court “has held that a person has no legitimate expectation of privacy in information he
voluntarily turns over to third parties” and citing other Supreme Court cases). This rule follows
from the Supreme Court’s reasoning that where an individual reveals information to a third party,
that individual “takes the risk, in revealing his affairs to another, that the information will be
conveyed by that person to the Government.” Miller, 425 U.S. at 443.

Page 2 of 3

Case 6:16-cr-00187-CEM-LRH Document 172 Filed 06/19/18 Page 3 of 3 PageID 1513

The information at issue here was revealed by Defendant to the patient, who revealed it to
the pharmacy, which revealed it to the PDMP. Indeed, Defendant could not have even had a
subjective expectation of privacy because he knew the information would be revealed in such a
manner. In other words, Defendant revealed the information to a third party, knowing it would be
revealed to additional third parties. At that point, he no longer had any protectable Fourth
Amendment right to privacy in that information. Thus, even if law enforcement did not comply
with Florida statutes and regulations in obtaining that information, such action did not violate
Defendant’s Fourth Amendment rights, and therefore, does not warrant suppression of the
evidence obtained from the PDMP.
Accordingly, it is ORDERED and ADJUDGED that Defendant’s Motion for
Reconsideration to Suppress Illegally Seized Evidence (Doc. 167) is DENIED.
DONE and ORDERED in Orlando, Florida on June 19, 2018.

Copies furnished to:
Counsel of Record

Page 3 of 3

C

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 1 of 9 PageID 1413

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

UNITED STATES OF AMERICA
v.

Case No: 6:16-cr-187-Orl-41TBS

JOHN MATTHEW GAYDEN, JR.
/
ORDER
THIS CAUSE is before the Court on Defendant’s Motion to Disqualify Gary M. Reisfield
(Doc. 77) and the Government’s Response (Doc. 89); Defendant’s Motion to Dismiss for
Prejudicial Pre-Indictment Delay (Doc. 80) and the Government’s Response (Doc. 94);
Defendant’s Motion to Dismiss the Indictment for Vagueness (Doc. 81) and the Government’s
Response (Doc. 95); and Defendant’s Motion Regarding the Proper “Standard of Care” Testimony
(Doc. 84) and the Government’s Response (Doc. 98). A hearing was held on May 10, 2018. (Min.
Entry, Doc. 102). For the reasons stated below, Defendant’s motions will be denied.
I.

BACKGROUND

Defendant was charged by Indictment with seven counts of knowingly and intentionally
dispensing and distributing oxycodone outside the usual course of professional practice and for
other than legitimate medical purposes in violation of 21 U.S.C. § 841(a)(1) and 18 U.S.C. § 2.
(Indictment, Doc. 1, at 1–2). Defendant has filed numerous pre-trial motions, which the Court will
address in turn.
II.
A.

DEFENDANT’S MOTIONS

Motion to Disqualify

Dr. Gary M. Reisfield is the Government’s medical expert. The Government plans to call
Reisfield to testify that in his opinion, Defendant prescribed drugs to his patients outside the usual

Page 1 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 2 of 9 PageID 1414

course of professional practice. Defendant seeks to disqualify Reisfield as an expert pursuant to
Daubert and preclude him from testifying.
1.

Legal Standard

Although opinion testimony is generally inadmissible, Federal Rule of Evidence 702
permits “[a] witness who is qualified as an expert by knowledge, skill, experience, training, or
education” to provide opinion testimony in limited circumstances. Expert opinion testimony is
admissible if: (1) “the expert’s . . . specialized knowledge will help the trier of fact to understand
the evidence or to determine a fact in issue”; (2) “the testimony is based on sufficient facts or
data”; (3) “the testimony is the product of reliable principles and methods”; and (4) “the expert has
reliably applied the principles and methods to the facts of the case.”
“[T]he Federal Rules of Evidence ‘assign to the trial judge the task of ensuring that an
expert’s testimony both rests on a reliable foundation and is relevant to the task at hand.’” Kumho
Tire Co. v. Carmichael, 526 U.S. 137, 141 (1999) (quoting Daubert v. Merrell Dow Pharm., Inc.,
509 U.S. 579, 597 (1993)). Pursuant to Daubert, the determination of admissibility is “uniquely
entrusted to the district court,” which is given “considerable leeway in the execution of its duty.”
Rink v. Cheminova, Inc., 400 F.3d 1286, 1291 (11th Cir. 2005) (quotation omitted). However,
“[t]he burden of laying the proper foundation for the admission of the expert testimony is on the
party offering the expert, and admissibility must be shown by a preponderance of the evidence.”
Allison v. McGhan Med. Corp., 184 F.3d 1300, 1306 (11th Cir. 1999).
The Eleventh Circuit has distilled the test for determining the admissibility of expert
testimony under Rule 702 and Daubert into three basic inquiries—(1) is the expert qualified; (2)
is the expert’s methodology reliable; and (3) will the testimony assist the trier of fact. City of
Tuscaloosa v. Harcros Chems., Inc., 158 F.3d 548, 562 (11th Cir. 1998). “As a general rule, the
factual basis of an expert opinion goes to the credibility of the testimony, not the admissibility,
and it is up to the opposing party to examine the factual basis for the opinion in cross-examination.”
Page 2 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 3 of 9 PageID 1415

Kearney v. Auto-Owners Ins. Co., No. 8:06-cv-595-T-24-TGW, 2007 WL 3231780, at *3 (M.D.
Fla. Oct. 30, 2007) (quotation omitted); see also Daubert, 509 U.S. at 596 (“Vigorous crossexamination, presentation of contrary evidence, and careful instruction on the burden of proof are
the traditional and appropriate means of attacking shaky but admissible evidence.”); S.E. Metals
Mfg. Co. v. Fla. Metal Prods., Inc., 778 F. Supp. 2d 1341, 1344 (M.D. Fla. 2011) (“Any
weaknesses in the underpinnings of the expert’s opinion go to its weight rather than its
admissibility.”).
2.

Analysis

Though Defendant cites Daubert in his motion, Defendant does not squarely challenge
Readfield’s testimony based on any of the three Daubert inquiries articulated by the Eleventh
Circuit. Rather, Defendant argues that the Government provided Reisfield with a substantial
amount of highly inflammatory, irrelevant information to review in forming his opinions regarding
Defendant’s prescribing practices and that exposure to this information caused Readfield’s opinion
to be biased. Additionally, Defendant asserts that no attempts were made to reduce the risk of
Reisfield forming a biased opinion based on this irrelevant information. Defendant also avers that
the Government asked Reisfield to subsequently conduct a second review of a limited set of
materials, demonstrating that the Government is aware that Readfield’s original opinion was
biased. Defendant further contends that this subsequent review failed to remedy Readfield’s bias,
arguing that it is impossible for a person to reach a second conclusion without taking into account
biasing information he or she previously reviewed. To support his arguments, Defendant presented
testimony from Daniel Murrie at the hearing. 1 The Government responds that Defendant’s motion

1

Murrie is a professor at the University of Virginia as well as the University of Virginia
School of Law and a director of psychology at the University of Virginia’s Institute of Law,
Psychiatry, and Public Policy. Murrie discussed contextual bias and explained that when
unnecessary contextual information is provided to an expert rendering an opinion, the information
is likely to bias the expert’s opinion. Murrie testified that an expert generally requires a very
narrow set of facts to render an opinion and explained that any information that is extraneous to
Page 3 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 4 of 9 PageID 1416

is devoid of any legal authority directly supporting the exclusion of expert testimony based on
confirmation bias and that Defendant has failed to demonstrate that Readfield’s opinion was in
fact biased.
While the Court does not question the credibility of Murrie or doubt the existence of
confirmation bias and contextual bias or their potential impact on experts’ opinions, the Court
concludes that neither the receipt of contextually biasing information by Reisfield nor the
phenomena of confirmation bias supports the disqualification of Reisfield. Defendant seeks to
disqualify Reisfield based on the factual basis of his opinion—a quintessential matter for crossexamination under the Daubert standard. See Daubert, 509 U.S. at 596. Defendant argues that he
cannot cross-examine Reisfield on the biasing materials that were provided to him because it
would require revealing the biasing—and highly prejudicial information—to the jury, thus
depriving Defendant of a fair trial. The Court disagrees. As the Government correctly pointed out,
cross-examination is available—whether defense counsel chooses to utilize cross-examination for
strategic purposes is a separate issue. Furthermore, Defendant has failed to provide this Court with
any legal authority supporting the disqualification of an expert based on the effects of contextual
or confirmation bias. Accordingly, Defendant’s Motion to Disqualify Gary M. Reisfield will be
denied.

the expert’s analysis, including whether the expert is being asked to testify for the prosecution or
the defense or the specific question presented to an expert, may bias the expert’s ultimate
conclusion. Murrie also discussed confirmation bias, which Murrie claims is a universally accepted
phenomena. According to Murrie, confirmation bias is the idea that once an individual forms a
hypothesis or a theory on a matter, the individual subconsciously tends to find that additional
evidence supports the hypothesis, while neglecting or undervaluing information that does not
support their previously formed hypothesis. Murrie also opined that once a person reaches a
conclusion based on a set of information, it is impossible—even upon examining a new set of
materials and conducting another analysis—for the expert to completely eliminate any biasing
information from their analysis. In other words, an expert is simply not able to conduct a new
review and reach a conclusion that is completely unaffected by the previously discovered biasing
information.
Page 4 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 5 of 9 PageID 1417

B.

Motion to Dismiss for Prejudicial Pre-Indictment Delay

Defendant argues that the Indictment should be dismissed because the Government
negligently delayed the prosecution of this case, which has caused him to suffer prejudice.
Specifically, Defendant contends that because there was a significant delay between the events
giving rise to the Indictment—which occurred around 2011—and the issuance of the Indictment—
which occurred in 2016—evidence has been lost or destroyed and key eyewitnesses have died,
thereby prejudicing Defendant. This Court disagrees with Defendant’s contention that mere
negligence by the Government is sufficient to support dismissal of the Indictment.
The Due Process Clause requires dismissal of an indictment if the defendant demonstrates
that the delay “caused substantial prejudice to [the] defendant’s rights to a fair trial and that the
delay was an intentional device to gain [a] tactical advantage over the accused.” Doggett v. United
States, 505 U.S. 647, 666 (1992) (emphasis added); see also United States v. Farias, 836 F.3d
1315, 1325 (11th Cir. 2016) (“In order to establish that the government’s delay in bringing the
indictment . . . violated his due process rights, [the defendant] was required to establish both (1)
that the delay actually prejudiced his defense, and (2) that it resulted from a deliberate design by
the government to gain a tactical advantage over him.”). Defendant has failed to show that the
delay was an intentional device employed by the Government to gain a tactical advantage over
him. That several key witnesses have died and that evidence has been lost or destroyed due to the
passage of time fails to demonstrate any intent by the Government. Accordingly, Defendant’s
Motion to Dismiss for Prejudicial Pre-Indictment Delay is due to be denied.
C.

Defendant’s Motion to Dismiss the Indictment for Vagueness

Defendant asks the Court to dismiss the Indictment, arguing that it merely provides generic
allegations rather than particularized facts and, consequently, fails to apprise Defendant of the
charges brought against him. The Government responds that the Indictment is sufficient: each

Page 5 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 6 of 9 PageID 1418

count of the Indictment presents the essential elements of the offense, notifies Defendant of the
charge, and enables Defendant to rely on any judgment on each count as a bar to double jeopardy.
“The court may dismiss a criminal prosecution on grounds of ‘a defect in the indictment.’”
United States v. Bourlier, No. 3:10cr30/MCR, 2011 WL 30301, at *1 (N.D. Fla. Jan. 4, 2011)
(quoting Fed. R. Crim. P. 12(b)(3)(B)). “However, an indictment is sufficient as long as it sets
forth ‘a plain, concise, and definite written statement of the essential facts constituting the offense
charged.’” Id. (quoting Fed. R. Crim. P. 7(c)(1)). “An indictment is sufficient if it: (1) presents the
essential elements of the charged offense, (2) notifies the accused of the charges to be defended
against, and (3) enables the accused to rely upon a judgment under the indictment as a bar against
double jeopardy for any subsequent prosecution for the same offense.” United States v. Steele, 147
F.3d 1316, 1320 (11th Cir. 1998) (en banc) (quotation omitted). Generally, “the sufficiency of the
indictment should be determined from the face of the indictment, and an indictment is sufficient if
it charges the language of the statute.” Bourlier, 2011 WL 30301, at *1.
Contrary to Defendant’s arguments, the Court concludes that the Indictment should not be
dismissed for vagueness. “The [I]ndictment here sufficiently alleges the language of the statute—
i.e., that [Defendant] knowingly and intentionally dispensed [and distributed a] controlled
substance[] in violation of § 841(a)(1).” Id.; see also (Doc. 1 at 1–2). Notably, the language of the
Indictment in this case is nearly identical to the language of the indictment in United States v.
Steele. Compare (Doc. 1 at 1–2), with Steele, 147 F.3d at 1317. In Steele, the Eleventh Circuit,
sitting en banc, determined that the indictment satisfied the three requirements articulated above
and, therefore, was not defective. 147 F.3d at 1320. Here, the Indictment provides even more
information than the indictment in Steele because for each count, it provides the specific date that
the alleged conduct occurred as well as the initials of the specific patient to whom Defendant
allegedly prescribed oxycodone. Thus, in accordance with Eleventh Circuit precedent, the Court

Page 6 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 7 of 9 PageID 1419

finds that the Indictment is sufficient. Defendant’s Motion to Dismiss the Indictment for
Vagueness will be denied.
D.

Defendant’s Motion Regarding the Proper “Standard of Care” Testimony

Defendant asks the Court to exclude any testimony regarding the proper “standard of care”
and whether Defendant’s conduct complied with the standard. Defendant argues that to be
convicted, the Government must prove that he “dispensed controlled substances for other than
legitimate medical purposes in the usual course of professional practice, and that he did so
knowingly and intentionally.” United States v. Azmat, 805 F.3d 1018, 1035 (11th Cir. 2015)
(quotation omitted). Defendant contends that pursuant to this legal standard, he cannot be
convicted for committing malpractice or deviating from the standard of care. Thus, Defendant
avers that any testimony discussing the standard of care and Defendant’s conduct in relation to the
standard would be highly prejudicial and misleading to the jury. The Government responds that
the jury may properly consider evidence that Defendant deviated from the standard of care.
“To convict a licensed physician under section 841(a)(1), it [is] incumbent upon the
government to prove that he dispensed controlled substances for other than legitimate medical
purposes in the usual course of professional practice, and that he did so knowingly and
intentionally.” United States v. Joseph, 709 F.3d 1082, 1094 (11th Cir. 2013) (quotation omitted).
To prove that a defendant dispensed controlled substances for other than legitimate medical
purposes in the usual course of professional practice, testimony regarding the appropriate standard
of care and whether, in the witness’s opinion, the defendant’s conduct deviated from that standard
is permissible. See id. at 1097 (“Experts for both the prosecution and the defense testified about
the accepted standard of medical practice, and it was for the jury to resolve the conflicting
testimony and determine whether [the defendant] had acted in accord with the accepted standard
of medical practice.”); United States v. Bourlier, 518 F. App’x 848, 852 (11th Cir. 2013) (affirming
the district court’s ruling that there was sufficient evidence to support the defendant’s conviction
Page 7 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 8 of 9 PageID 1420

under § 841(a)(1) where there was expert testimony presented about the standard of care for
prescribing controlled substances under Florida law as well as evidence about the Florida Board
of Medicine’s rules regarding the prescription of controlled substances and where portions of the
Florida Administrative Code that addressed the use of controlled substances for pain management
were read into the record because that evidence coupled with evidence of the defendant’s
prescribing practices could have caused a jury to conclude that the defendant was acting other than
for a legitimate medical purpose and not in the usual course of professional practice); United States
v. Johnston, 322 F. App’x 660, 667 (11th Cir. 2009) (stating that the expert “testified as to the
appropriate standard of care in the medical field” where defendant was charged with violating
§ 841(a)(1) and (b)(1)(C)).
Further, “[t]he Eleventh Circuit has indicated, consistent with Supreme Court precedent,
that it is appropriate to instruct the jury to focus on whether the doctor acted ‘in accordance with
a standard of medical practice generally recognized and accepted in the United States.’” United
States v. Bourlier, No. 3:10cr30/MCR, 2011 WL 3837314, at *3 (N.D. Fla. Aug. 26, 2011)
(quoting United States v. Moore, 423 U.S. 122, 139 (1975)), aff’d, 518 F. App’x 848 (11th Cir.
2013); see also Joseph, 709 F.3d at 1095. This demonstrates that Defendant’s position that
standard of care evidence is impermissible simply cannot be correct. To the extent Defendant
argues that evidence relating to the standard of care could confuse the jury and result in an
improper conviction, Defendant’s concerns can be remedied with jury instructions. See Bourlier,
2011 WL 3837314, at *3 (upholding the defendant’s conviction where evidence about the
defendant’s conduct in relation to the standard of care was presented and noting that “the court
specifically cautioned the jury that [the defendant] was not on trial for medical malpractice or
negligence”). Thus, Defendant’s Motion Regarding the Proper “Standard of Care” Testimony will
be denied.

Page 8 of 9

Case 6:16-cr-00187-CEM-LRH Document 145 Filed 06/08/18 Page 9 of 9 PageID 1421

III.

CONCLUSION

For the reasons stated herein, it is ORDERED and ADJUDGED as follows:
1. Defendant’s Motion to Disqualify Gary M. Reisfield (Doc. 77) is DENIED.
2. Defendant’s Motion to Dismiss for Prejudicial Pre-Indictment Delay (Doc. 80) is
DENIED.
3. Defendant’s Motion to Dismiss the Indictment for Vagueness (Doc. 81) is
DENIED.
4. Defendant’s Motion Regarding the Proper “Standard of Care” Testimony (Doc. 84)
is DENIED.
DONE and ORDERED in Orlando, Florida on June 8, 2018.

Copies furnished to:
Counsel of Record

Page 9 of 9

D

USCA11 Case: 18-14182

Date Filed: 12/03/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14182-DD
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JOHN MATTHEW GAYDEN, JR.,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
Before MARTIN, ROSENBAUM, and TALLMAN,* Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

∗ Honorable Richard C. Tallman, United States Circuit Judge for the Ninth Circuit, sitting by
designation.
ORD-42

